IN THE SUPREME COURT OF THE UNITED STATES
No.
MACHIAVELLIFARRAKHAN SIBERIUS
Plaintiff - Petitioner,
v.

-AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.; PRESSLEY RIDGE;
WEST VIRGINIA DEPARTMENT OF EDUCATION, et al.
Defendants - Respondents,
CERTIFICATE OF SERVICE
A true and correct copy by the plaintiffrpetitioner, Machiavelli Farrakhan
Siberius, was served on April 2, 2021, using the United States Postal Service. I hereby certify that
I mailed the foregoing paper, the “Petition for Writ of Certiorari,” with the Clerk of the United
States Supreme Court. The defendants/respondents on the service list will receive a copy of the
filing from the United States Postal Service.

Date:
MACHIAVELLI F. SIBERIUS, Pro Se
P.O. Box 1162
Parkersburg, WV 26102
Telephone: (304) 210-6097
MFSiberius@hotmail.com

Subscribed and sworn to before
This

.day of

t V . 20

juJ

La 3 A (O O

SlI

T

(NOTARY PUBLIC)
My-j^rmnissiohE^i^^ (WbmjQ

:

sm^i

oLOot^

Service Last

AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.
Attorney: Allison B. Williams & Larry J. Rector
Mail: 400 White Oaks Boulevard*
Bridgeport, WV 26330
WEST VIR(HNIA DEPARTMENT OF EDUCATION
Attorney: J. Victor Flanagan & Katie L. Hicklin Luyster
Mail: 901 Quarrier Street, James Mark Building,
Charleston, WV 25301
PRESSLEY RIDGE
Attorney: Joseph Selep & Dara A. DeCourcy
Mail: 310 Grant Street, Suite 3000,
Pittsburgh, PA 15219

